Audit Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants 
to the City of Live Oak, Florida, Police Department
GR-40-02-001
October 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the city of Live Oak, Florida, Police Department (grantee).  The purpose of the grant was to re-establish the city's police department.  The grantee was awarded a Universal Hiring Program (UHP) grant and 3 UHP supplements totaling $1,056,829 to hire 16 full-time officers.  The grantee has hired all 16 officers and the federal funding for the last officer is scheduled to end on October 31, 2002, when the 3-year funding period concludes. 

	We reviewed the grantee's compliance with six essential grant conditions, and found the grantee's local matching funds, reimbursement requests, and community policing activities to be acceptable.  However, we found weaknesses in the areas noted below.  As a result of the identified deficiencies, we question $831,622 in grant funds received and recommend an additional $225,207 be deobligated and put to better use. 1

The grantee, after receiving the COPS grant, did not maintain the level of law enforcement services previously provided through a contract with the Suwanee County Sheriff's Department.  In our judgment, this constitutes a violation of COPS' non-supplanting requirement.

	The grantee's actual costs for the UHP grant were $91,823 less than estimated in its grant application.  Since the UHP grant had ended, the remaining $91,823 should be deobligated and put to better use.

	While the grantee retained the actual officers hired under the initial UHP grant, the grantee had not retained the required number of additional officer positions because it did not maintain the level of law enforcement services provided through the contract with the Sheriff's Department after receiving the grant.  In addition, although the grantee had made appropriate plans to retain the actual officers hired under the ongoing UHP supplements, the grantee would not retain the required number of additional officer positions for the supplements for the same reason stated above.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I. 




Footnote

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.